NO. ______________________
IN THE
SUPREME COURT OF THE UNITED STATES

DONNIE JOE PHILLIPS, Petitioner,
VS.
UNITED STATES OF AMERICA, Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

ALEXIS HALLER
Counsel of Record
LAW OFFICE OF ALEXIS HALLER
7960B Soquel Drive, #130
Aptos, California 95003
(831) 685-4730
ahaller@ahlawoffice.com
Counsel of Record for Petitioner,
DONNIE JOE PHILLIPS

TO THE HONORABLE CHIEF JUSTICE OF THE SUPREME COURT OF THE
UNITEDSTATESANDTOTHEHONORABLEASSOCIATEJUSTICESOFTHE
COURT:
Pursuant to 18 U.S.C. section 3006A(d)(7) and Rule 39 of the Rules of the Supreme
Court of the United States, Petitioner Donnie Joe Phillips ("Petitioner") respectfully requests
leave. to file a petition for writ of certiorari without pre-payment of fees or costs and to
proceed in forma pauperis. In making this application, Petitioner submits that he has been
represented by appointed counsel in both the United States District Court for the Eastern
District of California and the United States Court of Appeals for the Ninth Circuit. The
attached declaration of appellate counsel is provided in support of this application.
Dated: June 7, 2021

Respectfully submitted,

~
ALEXIS HALLER
C::

Attorney for Petitioner,
Donnie Joe Phillips

DECLARATION OF ALEXIS HALLER
I am an attorney licensed to practice in California and in the District of Columbia. I
am a member of the bar of this Court. I am the attorney of record for Petitioner Donnie Joe
Phillips.
I have personal knowledge of the facts contained in this declaration and, if called as
a witness, I could and would testify competently thereto.
On July 11, 2018, I was appointed by the United States District Court for the Eastern
District of California to represent Petitioner on appeal pursuant to the Criminal Justice Act
of 1964. Pursuant to that appointment, I filed the Notice of Appeal in the District Court and
pleadings on Petitioner's behalf in the United States Court of Appeals for the Ninth Circuit.
I have remained Petitioner's counsel of record to this time.
I declare under penalty of perjury under the laws of the United States of America that
the foregoing is true and correct.
· Executed this 7th day of June, 2021, at Aptos, California.

ALEXIS HALLER

